                        Federal Register / Vol. 67, No. 117 / Tuesday, June 18, 2002 / Notices                           41433

version published in the Federal            manufacturers’ assistance, information      industry, the OIG is reevaluating the
Register on December 16, 1999 (64 FR        on video conferencing and electronic        contents of the hospital CPG. As part of
70264). The comment period for the          submissions, Mammography Matters,           this process, the OIG is soliciting
draft guidance ended on March 15,           and other device-oriented information.      comments, recommendations and other
2000. A meeting of the Obstetrics and       You may access the CDRH home page at        suggestions from concerned parties and
Gynecology Devices Panel was held on        http://www.fda.gov/cdrh. You may            organizations on how best to revise the
January 25, 2000, to discuss the draft      search for all CDRH guidance                hospital CPG to address relevant
version of this guidance.                   documents at http://www.fda.gov/cdrh/       compliance issues. Specifically, the OIG
   Comments received on the draft           guidance.html. Guidance documents are       seeks comments addressing any changes
guidance generally addressed the use of     also available on the Dockets               to existing risk areas, and introduction
adhesion reduction as a surrogate           Management Branch Web site at http:/        of any new risk areas related to OPPS
endpoint for clinical endpoints such as     /www.fda.gov/ohrms/dockets.                 implementation or industry changes.
fertility, pelvic pain, and small bowel                                                 DATES: To assure consideration,
obstruction. Several respondents stated     IV. Comments
                                                                                        comments must be delivered to the
that adhesion reduction itself should be      You may submit to the Dockets             address provided below by no later than
considered an endpoint that provides a      Management Branch (see ADDRESSES)           5 p.m. on August 19, 2002.
clinical benefit to the patient             written or electronic comments              ADDRESSES: Please mail or deliver your
irrespective of other clinical outcomes     regarding this guidance at any time. You    written comments, recommendations
such as those mentioned above. The          should submit two copies of any             and suggestions to the following
agency believes that whether adhesion       comments. Individuals may submit one        address: Department of Health and
reduction is considered a surrogate or      copy. You must identify comments with       Human Services, Office of Inspector
clinical endpoint, it is valid as a study   the docket number found in brackets in      General, Attention: OIG–12–CPG, Room
endpoint so long as the adhesion            the heading of this document. The           5527 A, Cohen Building, 330
reduction measured provides some            guidance document and received              Independence Avenue, SW.,
reasonable assurance that the adhesion      comments are available for public           Washington, DC 20201.
barrier will provide clinically             examination in the Dockets                     We do not accept comments by
significant results.                        Management Branch between 9 a.m. and        facsimile (FAX) transmission. In
II. Significance of Guidance                4 p.m., Monday through Friday.              commenting, please refer to the file code
   This guidance is being issued              Dated: May 31, 2002.                      OIG–12–CPG. Comments received
consistent with FDA’s good guidance         Linda S. Kahan,                             timely will be available for public
practices regulation (21 CFR 10.115).       Deputy Director, Center for Devices and     inspection as they are received,
The guidance represents the agency’s        Radiological Health.                        generally beginning approximately 3
current thinking on resorbable adhesion     [FR Doc. 02–15209 Filed 6–17–02; 8:45 am]   weeks after publication of a document,
barrier devices used in abdominal and/      BILLING CODE 4160–01–S
                                                                                        in Room 5541 of the Office of Inspector
or pelvic surgery. It does not create or                                                General at 330 independence Avenue,
confer any rights for or on any person                                                  SW., Washington, DC 20201 on Monday
and does not operate to bind FDA or the     DEPARTMENT OF HEALTH AND                    through Friday of each week from 8:00
public. An alternative approach may be      HUMAN SERVICES                              A.M. to 4:30 P.M.
used if such approach satisfies the                                                     FOR FURTHER INFORMATION CONTACT: Paul
requirements of the applicable statute      Office of Inspector General                 M. Johnson, Office of Counsel to the
and regulations.                                                                        Inspector General, (202) 619–2078; or
                                            Solicitation of Information and             Joel Schaer, Office of Counsel to the
III. Electronic Access                      Recommendations for Revising the            Inspector General, (202) 619–0089.
   In order to receive ‘‘Guidance for       Compliance Program Guidance for the         SUPPLEMENTARY INFORMATION: The
Resorbable Adhesion Barrier Devices for     Hospital Industry                           development of compliance program
Use in Abdominal and/or Pelvic              AGENCY: Office of Inspector General         guidances has become a major initiative
Surgery’’ via your fax machine, call the    (OIG), HHS.                                 of the OIG in its effort to engage the
CDRH Facts-On-Demand system at 800–         ACTION: Notice.                             private health care industry in
899–0381 or 301–827–0111 from a                                                         addressing and combating fraud and
touch-tone telephone. Press 1 to enter      SUMMARY:   This Federal Register notice     abuse. Over the past several years, the
the system. At the second voice prompt      seeks the input and recommendations of      OIG has developed and issued
press 1 to order a document. Enter the      interested parties as the OIG revises the   compliance program guidances directed
document number (1356) followed by          compliance program guidance (CPG) for       at various segments of the health care
the pound sign (#). Follow the              hospitals, especially those serving         industry. These guidances are designed
remaining voice prompts to complete         Medicare, Medicaid and other Federal        to provide clear direction and assistance
your request.                               health care program beneficiaries. The      to specific sections of the health care
   You may obtain a copy of the             hospital industry has experienced a         industry that are interested in
guidance from the Internet. CDRH            number of changes since the first CPG       addressing compliance with Federal
maintains an entry on the Internet for      was published in early 1998.                health care program requirements.
easy access to information including        Additionally, the subsequent 4 years of        The guidances have represented the
text, graphics, and files that you may      compliance activity in the hospital         culmination of the OIG’s suggestions on
download to a personal computer.            industry has allowed the OIG to more        how providers can most effectively
Updated on a regular basis, the CDRH        fully address the various risk areas in     establish internal controls and
home page includes device safety alerts,    hospital compliance.                        implement monitoring procedures to
Federal Register reprints, information        With the implementation of the            identify, correct and prevent potentially
on premarket submissions (including         Hospital Outpatient Prospective             fraudulent conduct. The suggestions
lists of approved applications and          Payment System (OPPS), as well as           contained in the guidances are not
manufacturers’ addresses), small            other significant changes in the hospital   mandatory for providers, nor do they
41434                     Federal Register / Vol. 67, No. 117 / Tuesday, June 18, 2002 / Notices

represent an exclusive discussion of the        Agenda: To review and evaluate grant           (Catalogue of Federal Domestic Assistance
advisable elements of a compliance            applications.                                    Program Nos. 93.392, Cancer Construction;
program.                                        Place: Radisson Astrodome Convention           93.393, Cancer Cause and Prevention
  Through this Federal Register notice,       Center, 8686 Kirby Drive, Houston, TX            Research; 93.394, Cancer Deterction and
                                              77030.                                           Diagnosis Research; 93.395, Cancer
the OIG is seeking input from interested        Contact Person: Shakeel Ahmad, PhD,            Treatment Research; 93.396, Cancer Biology
parties as the OIG considers revising the     Scientific Review Administrator, Grants          Research; 93.397, Cancer Centers Support;
CPG for the hospital industry. The OIG        Review Branch, National Cancer Institute,        93.398, Cancer Research Manpower; 93.399,
will consider all comments,                   National Institutes of Health, 8th Floor, Room   Cancer Control, National Institutes of Health,
recommendations and suggestions               8137, 6116 Executive Boulevard, Bethesda,        HHS)
received within the time frame                MD 20892, (301) 594–0114,
                                              amads@mail.nih.gov.                                Dated: June 11, 2002.
indicated above. The OIG would
                                                                                               LaVerne Y. Stringfield,
appreciate specific comments,                 (Catalogue of Federal Domestic Assistance
                                              Program Nos. 93.392, Cancer Construction;        Director, Office of Federal Advisory
recommendations and suggestions on
                                              93.393, Cancer Cause and Prevention              Committee Policy.
(1) risk areas for the hospital industry,
                                              Research; 93.394, Cancer Detection and           [FR Doc. 02–15266 Filed 6–17–02; 8:45 am]
and (2) aspects of the seven elements
                                              Diagnosis Research; 93.395, Cancer               BILLING CODE 4140–01–M
contained in the previous CPGs that           Treatment Research; 93.396, Cancer Biology
may need to be modified in light of           Research; 93.397, Cancer Centers Support;
recent developments in the hospital           93.398, Cancer Research Manpower; 93.399,        DEPARTMENT OF HEALTH AND
industry and changes in Federal health        Cancer Control, National Institutes of Health,   HUMAN SERVICES
care program systems. Detailed                HHS)
justifications and empirical data               Dated: June 11, 2002.                          National Institutes of Health
supporting any suggestions would be           LaVerne Y. Stringfield,
appreciated.                                                                                   National Cancer Institute; Notice of
                                              Director, Office of Federal Advisory
  We request that any comments,                                                                Meeting
                                              Committee Policy.
recommendations or suggestions be
                                              [FR Doc. 02–15261 Filed 6–17–02; 8:45 am]           Pursuant to section 10(a) of the
submitted in a format that address the
topics outlined above in a concise            BILLING CODE 4140–01–M                           Federal Advisory Committee Act, as
manner, rather than in the form of a                                                           amended (5 U.S.C. Appendix 2), notice
comprehensive draft guidance that                                                              is hereby given of a meeting of the
                                              DEPARTMENT OF HEALTH AND                         Advisory Committee to the Director,
mirrors previous CPGs.
                                              HUMAN SERVICES                                   National Cancer Institute.
  Dated: May 29, 2002.
                                              National Institutes of Health                       The meeting will be open to the
Janet Rehnquist,
                                                                                               public, with attendance limited to space
Inspector General.

                                              National Cancer Institute; Notice of             available. Individuals who plan to
[FR Doc. 02–15349 Filed 6–17–02; 8:45 am] 
                                                    attend and meet special assistance, such
                                              Closed Meeting
BILLING CODE 4152–01–M                                                                         as sign language interpretation or other
                                                 Pursuant to section 10(d) of the              reasonable accommodations, should
                                              Federal Advisory Committee Act, as               notify the Contact Person listed below
DEPARTMENT OF HEALTH AND                      amended (5 U.S.C. Appendix 2), notice            in advance of the meeting.
HUMAN SERVICES                                is hereby given of the following
                                              meeting.                                           Name of Committee: Advisory Committee
National Institutes of Health                    The meeting will be closed to the             to the Director, National Cancer Institute.
                                                                                                 Date: July 10, 2002.
                                              public in accordance with the                      Time: 1 p.m. to 3 p.m.
National Cancer Institute; Notice of          provisions set forth in sections
Closed Meeting                                                                                   Agenda: The purpose of the meeting will
                                              552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,       be to discuss the Kidney/Bladder Progress
   Pursuant to section 10(d) of the           as amended. The grant applications and           Review Group Report.
Federal Advisory Committee Act, as            the discussions could disclose                     Place: National Cancer Institute, National
amended (5 U.S.C. Appendix 2), notice         confidential trade secrets or commercial         Institutes of Health, 9000 Rockville Pike,
is hereby given of the following              property such as patentable material,            Building 31, Room 11A03, Bethesda, MD
                                              and personal information concerning              20892, (Telephone Conference Call).
meeting.
                                              individuals associated with the grant              Contact Person: Lisa Stevens, PhD,
   The meeting will be closed to the                                                           Executive Secretary, National Institute of
public in accordance with the                 applications, the disclosure of which            Health, Building 31, Room 3A30, Bethesda,
provisions set forth in sections              would constitute a clearly unwarranted           MD 20892, 301/496–1458.
552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,    invasion of personal privacy.
                                                                                                 Information is also available on the
as amended. The grant applications and          Name of Committee: National Cancer             Institute’s/Center home page:
the discussions could disclose                Institute Special Emphasis Panel, Review of      deainfo.nci.gov/advisory/joint/htm,
confidential trade secrets or commercial      Tobacco Industry Documents.
                                                Date: July 11, 2002.
                                                                                               where an agenda and any additional
property such as patentable material,
                                                Time: 2 pm to 8 pm.                            information for the meeting will be
and personal information concerning
                                                Agenda: To review and evaluate grant           posted when available.
individuals associated with the grant
applications, the disclosure of which         applications.                                    (Catalogue of Federal Domestic Assistance
                                                Place: Radisson Hotel, 1901 University         Program Nos. 93.392, Cancer Construction;
would constitute a clearly unwarranted        Blvd. SE, Albuquerque, NM 87106.                 93.393, Cancer Cause and Prevention
invasion of personal privacy.                   Contact Person: Gerald G. Lovinger, PhD,       Research; 93.394, Cancer Detection and
  Name of Committee: National Cancer          Scientific Review Administrator, Special         Diagnosis Research; 93.395, Cancer
Institute Special Emphasis Panel, ‘‘Growth    Review and Resources Branch, Division of         Treatment Research, 93.396, Cancer Biology
Factor Receptor Signaling in Breast Cancer    Extramural Activities, National Cancer           Research; 93.397, Cancer Centers Support;
Progression’’.                                Institute, National Institutes of Health, 6116   93.398, Cancer Research Manpower; 93.399,
  Date: July 10–12, 2002.                     Executive Boulevard, Room 8101, Rockville,       Cancer Control, National Institutes of Health,
  Time: 5:00 PM to 1:00 PM.                   MD 20892–7405, 301/496–7987.                     HHS)
